Department of Homeland Security
   Ofﬁce of Inspector General

                      Management of 

        the Transportation Security Administration's 

                     Logistics Center 





OIG-10-14                                      November 2009
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................3 


     Deployment, Redeployment, and Disposal of Equipment.............................................4 

     Planned TSA Actions.....................................................................................................6 

     Recommendations..........................................................................................................7 

     Management Comments and OIG Analysis ..................................................................8 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................11 

     Appendix C:           Major Contributors to This Report ......................................................15 

     Appendix D:           Report Distribution ..............................................................................16 


Abbreviations
    DHS             Department of Homeland Security 

    OIG             Office of Inspector General 

    TSA             Transportation Security Administration

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We performed an audit of the Transportation Security
                    Administration’s Logistics Center as a result of the Property, Plant,
                    and Equipment material weakness reported in the Transportation
                    Security Administration FY 2008 financial statement audit. The
                    Logistics Center is a staging area for transportation security
                    equipment and related components. This report addresses the
                    efficacy of Transportation Security Administration’s efforts to
                    deploy, redeploy, and dispose of transportation security equipment
                    through its Logistics Center.

                    The Transportation Security Administration did not efficiently
                    deploy, redeploy, or dispose of transportation security equipment
                    through its Logistics Center. Specifically, the Transportation
                    Security Administration stored new equipment more than 3 years
                    without written transition plans for its deployment; did not perform
                    timely assessments of the condition of used equipment to
                    determine whether these items could be redeployed; and stored
                    excess transportation security equipment longer than necessary.
                    This occurred because the Transportation Security Administration
                    did not have standard guidance for the deployment, redeployment,
                    and disposal of its transportation security equipment. As a result,
                    the Transportation Security Administration may have lost utility of
                    equipment as it aged in storage and did not have an accurate
                    accounting of its inventory. In addition, the need to store excess
                    equipment contributed to the Transportation Security
                    Administration’s decision to lease additional warehouse space in
                    FY 2009 at a cost of $2 million.

                    The Transportation Security Administration chartered an
                    Integrated Property Management team in January 2009 to establish
                    guidance for warehouse equipment management and risk
                    mitigation strategies. However, the Transportation Security
                    Administration was still developing this guidance during our audit.

                    We made three recommendations to the Transportation Security
                    Administration. The Transportation Security Administration
                    concurred with the recommendations.

       Management of the Transportation Security Administration’s Logistics Center

                                         Page 1
Background
                  Transportation security equipment is central to Transportation
                  Security Administration’s (TSA) mission to protect the Nation’s
                  transportation systems. TSA personnel use six major categories of
                  transportation security equipment to screen air passengers,
                  baggage, and cargo: ready x-rays, advanced technology x-ray,
                  explosive trace detection systems, explosive detection systems,
                  bottle liquid scanners, and enhanced metal detectors. As of
                  January 2009, TSA had approximately 13,650 units of
                  transportation security equipment at 457 airports nationwide and
                  2,302 units of transportation security equipment stored in
                  warehouses at the TSA Logistics Center in Dallas, Texas. In FY
                  2008, TSA shipped 1,721 units of transportation security
                  equipment valued at about $253 million through the Logistics
                  Center to individual airports.

                  TSA generally directs manufacturers of transportation security
                  equipment to ship equipment to the Logistics Center for processing
                  before personnel deploy it to airports. TSA also stores used
                  equipment awaiting repair or redeployment and equipment
                  awaiting disposal at the Logistics Center. Warehouse operations
                  are managed by a TSA contractor using the contractor’s
                  information management systems. TSA contracted for its first
                  warehouse for equipment storage at the TSA Logistics Center in
                  February 2005. As inventory increased, TSA added a second
                  warehouse in FY 2007 and a third warehouse in FY 2009.

                  As illustrated in the table below, 224 units (10%) of equipment at
                  the Logistics Center had been stored for more than 2 years and 826
                  units (36%) had been stored for more than 1 year as of January
                  2009.




     Management of the Transportation Security Administration’s Logistics Center 


                                       Page 2

                                         Transportation Security Equipment
                                                               Time in Storage as of January 2009
                Class                  Type                  <1       >1     >2       >3     Purchase
                                                             Yr.      Yr.    Yrs.     Yrs    Price ($)
                                                                                       .
                New      Explosive Detection Systems          88       5       3       -    55,188,328
                         Explosive Trace Detection Systems    48      316     17      12    11,953,792
                         Ready X-rays                        136       2       -       -    15,526,293
                         Enhanced Metal Detectors              -       9       -       -         34,374
                         Explosive Trace Portals               -       -       -       2        358,128
                                           Subtotal of New   272      332     20      12    83,060,915
                Used     Explosive Detection Systems         47        5      13       9    69,185,000
                         Explosive Trace Detection Systems   74       78       7       1      4,634,452
                         Ready X-rays                        365       7       1       -    14,735,481
                         Enhanced Metal Detectors            189     117      44       8      2,351,579
                         Explosive Trace Portals              1        1       -       -        280,000
                                          Subtotal of Used   676     208      65      18    91,186,512
              Pending    Explosive Detection Systems         33       35       7      11
              Disposal                                                                      60,200,000
                         Explosive Trace Detection Systems   416       2       2       1    11,237,134
                         Ready X-rays                        46        1       3       -      2,086,085
                         Explosive Trace Portals             33       24      60      23    24,678,320
                             Subtotal of Pending Disposal    528      62      72      35    98,201,539
                             Total 2302                     1476     602     157      67   272,448,966
                                     100%                   64%      26%     7%       3%


                   We performed this audit as a result of the Property, Plant, and
                   Equipment material weakness reported in the TSA FY 2008
                   financial statement audit. The material weakness resulted from
                   impaired equipment not being properly segregated from other
                   equipment in the warehouse and the carrying value of those assets
                   not being adjusted to net realizable value. As a result,
                   TSA management was not able to assert to the valuation of the
                   property and equipment reported on DHS' consolidated balance
                   sheet and related footnotes. The independent public accounting
                   firm performing the financial statement audit under contract to the
                   OIG concluded that material weakness conditions at DHS related
                   to the valuation of property and equipment contributed to DHS'
                   disclaimer of opinion on the financial statements.


Results of Audit
           TSA did not efficiently deploy, redeploy, or dispose of transportation
           security equipment through its Logistics Center. Specifically, TSA stored
           new equipment more than 3 years without written transition plans for its
           deployment; did not perform timely assessments of the condition of used
           equipment to determine whether these items could be redeployed; and
           stored excess transportation security equipment longer than necessary.
           This occurred because TSA did not have standard guidance for the

      Management of the Transportation Security Administration’s Logistics Center 


                                           Page 3 

      deployment, redeployment, and disposal of its transportation security
      equipment. As a result, TSA may have lost utility of equipment as it aged
      in storage and did not have an accurate accounting of its inventory. In
      addition, the need to store excess equipment contributed to TSA’s decision
      to lease additional warehouse space in FY 2009 at a cost of $2 million.

      In response to the material weakness reported in the FY 2008 financial
      statement audit, TSA chartered an Integrated Property Management team
      in January 2009 to establish guidance for warehouse equipment
      management and risk mitigation strategies. However, TSA was still
      developing this guidance during our audit.

Deployment, Redeployment, and Disposal of Equipment

              Deployment of New Equipment

              TSA did not always deploy new equipment efficiently or take
              action to resolve deployment delays. In some instances, new
              equipment was stored for years before TSA program office
              personnel designated an airport to receive it. For example, during
              the first 3 months of 2007, the TSA Logistics Center received eight
              explosive detection systems units at a cost of about $7 million. As
              of January 2009, all eight explosive detection systems units
              remained in storage at the Logistics Center. TSA officials said that
              the explosive detection systems units were not deployed because
              the airports were not ready to receive them and that TSA program
              office personnel have now identified airports that are ready to
              receive seven of the eight units. As of January 2009, TSA also had
              345 new explosive trace detection systems units, which cost about
              $10.6 million, in storage for at least 1 year; some of these units had
              been in storage for more than 2 years.

              Deployment of this equipment has been delayed because TSA does
              not have written transition plans for the explosive detection
              systems units and did not develop an equipment transition plan for
              deploying explosive trace detection systems units until January
              2009. As a result, TSA may have lost utility of equipment as it
              aged in storage. TSA needs to develop guidelines for processing
              new equipment and develop standards for the maximum length of
              time that new equipment should remain at the Logistics Center
              before deployment. TSA also needs to ensure that equipment
              transition plans are developed for all of its major categories of
              transportation security equipment.




 Management of the Transportation Security Administration’s Logistics Center 


                                   Page 4 

                            Redeployment of Used Equipment

                            TSA did not perform timely assessments of the condition of the
                            used equipment to determine whether these items could be
                            redeployed or should be disposed. For example, as of January
                            2009, 291 units of used transportation security equipment had been
                            stored at the Logistics Center for more than 1 year. Further, 142
                            used explosive detection systems conveyor units, which cost
                            approximately $4.1 million, had been stored at the Logistics Center
                            longer than 2 years. TSA personnel stated that the Logistics
                            Center also stored equipment components for the explosive
                            detection systems units that may no longer be needed and that the
                            contractor’s inventory system incorrectly classified some
                            equipment that was no longer useable as available for
                            redeployment. Further, TSA disposed of more than 250 used units
                            of equipment that were classified for redeployment.

                            This occurred because at the time of our review TSA did not have
                            procedures in place to ensure that inventory was periodically
                            reviewed or properly classified for redeployment or disposal. As a
                            result, inventory was sent to a warehouse, assigned a condition
                            code, and then never reviewed again to ensure that the equipment
                            was still useful. In addition, equipment redeployment capability is
                            determined through a variety of informal processes because no
                            formal, agency wide guidance exists. For example, equipment
                            redeployment capability is frequently determined through verbal
                            discussions between the contracting officer’s technical
                            representative and a program manager in the Life Cycle Support
                            group. As a result, TSA’s property and financial systems did not
                            contain an accurate inventory of items that are available for use,
                            allow TSA management to make informed deployment,
                            redeployment, and disposal decisions, or ensure that TSA disposes
                            of equipment components that are no longer needed. TSA should
                            be performing periodic reviews of inventory to ensure that
                            inventory is correctly classified.

                            Equipment Disposal

                            According to the Office of Management and Budget Capital
                            Programming Guide 1 , asset disposal decisions should generally be
                            part of a systematic plan that is integrated into the agency’s

1
    Office of Management and Budget Circular A-11 (June 2008), Supplement to Part 7 (June 2006).


             Management of the Transportation Security Administration’s Logistics Center 


                                                  Page 5 

              broader capital resource management plan. Management should
              monitor how well an asset is performing throughout its lifecycle.
              If the asset becomes uneconomical to keep in service or fails to
              meet performance criteria, the agency should determine whether it
              should be retired or replaced. Once the agency decides to dispose
              of an asset, it should address the removal of the asset from service
              and plan for a replacement if required, redeploy it to elsewhere in
              the agency, or finally remove the asset from the agency’s property
              inventory. Agency property specialists, guided by internal policy
              and applicable laws and regulations, should work closely with
              agency executives to ensure cost-effective and timely asset
              disposal.

              TSA did not efficiently dispose of excess transportation security
              equipment stored at the Logistics Center. Although TSA personnel
              began developing a disposal plan in coordination with the
              Department of Defense in May 2005, the first equipment disposal
              did not take place until November and December 2008. This was
              due to the difficulty in establishing an agreement with a
              government organization possessing the capabilities to properly
              destroy sensitive national security equipment and completing a
              review of hazardous material disposal requirements. In November
              and December 2008, Logistics Center personnel disposed of about
              3,000 units of equipment. More than 1,300 of these 3,000 units
              had been at the Logistics Center for more than 2 years. As of
              January 2009, 697 units of equipment were awaiting disposal at the
              Logistics Center. Of those 697 units, 169 had been at the Logistics
              Center for more than 1 year. This occurred because TSA had not
              developed consistent guidance for equipment disposal. As a result,
              the space occupied by the combination of new, used, and excess
              equipment at the Logistics Center was a contributing factor in
              TSA’s decision to lease an additional warehouse in FY 2009 at a
              cost of $2 million. TSA officials stated that disposals will continue
              through FY 2009, and that the goal is to have a continuous process
              for disposals. TSA needs to ensure that it adequately monitors
              units pending disposal to ensure that they are disposed of
              promptly.

Planned TSA Actions

      As a result of the Property, Plant, and Equipment material weakness
      reported in TSA’s FY 2008 financial statement audit, TSA chartered a
      Transportation Security Equipment Integrated Property Management
      Team in January 2009. The team’s objective is to ensure that TSA stores
      and deploys transportation security equipment appropriately and that

 Management of the Transportation Security Administration’s Logistics Center 


                                   Page 6 

      equipment is controlled, accounted for, and reported pursuant to
      applicable laws and regulations. Planned deliverables in the team charter
      included a Warehouse Management Gap Analysis, Warehouse Manual,
      Disposal Process Document, and TSA Security Equipment Management
      Manual. The Integrated Property Management Team completed the
      Warehouse Management Gap Analysis in March 2009, the Warehouse
      Management Procedures and Oversight Manual in July 2009, the
      Property Disposition Process and Procedures Document, and the Security
      Equipment Management Manual in August 2009. However, these
      documents were in draft during the audit and were completed after the
      issuance of the draft report. TSA scheduled training in September 2009 to
      familiarize personnel with new procedures contained in the approved
      Integrated Property Management Team documents.

      In addition, TSA officials have a draft equipment transition plan that
      outlines the roles, responsibilities, and processes for the redeployment and
      decommissioning of existing explosive trace detection systems and ready
      x-ray units. The draft transition plan includes the following:

      •	 Deployment strategy, planning, and execution for new technologies;
      •	 Decommissioning strategy for equipment displaced from the field,
         including requirements for re-evaluation of decommissioned
         equipment;
      •	 Specific decommissioning strategy and procedures for ready x-rays
         and explosive trace detection systems units;
      •	 Quantity of ready x-rays and explosive trace detection systems units
         TSA will need to maintain in inventory to meet airports’ needs; and
      •	 Alternatives to long-term storage of excess units at the Logistics
         Center.

  TSA officials said that their draft equipment transition plan addresses the
  assessment of redeployment capability for ready x-ray units and explosive
  trace detection systems units. TSA completed its final equipment transition
  plan on May 28, 2009.

  However, the equipment transition plan only addresses transportation security
  equipment for the ready x-rays, advanced x-rays, and explosive trace detection
  systems units. TSA has not developed separate transition plans for the bottle
  liquid scanners, explosive detections systems, and enhanced metal detector
  units.

Recommendations
      We recommend that the Assistant Secretary for TSA:


 Management of the Transportation Security Administration’s Logistics Center 


                                   Page 7 

           •	 Recommendation #1: Develop, implement, and monitor procedures
              for the efficient deployment, redeployment, and disposal of all
              transportation security equipment through the Logistics Center.

           •	 Recommendation #2: Perform periodic reviews of inventory to make
              sure inventory is correctly classified.

           •	 Recommendation #3: Develop a recurring process to redeploy or
               dispose of any excess equipment at the Logistics Center.



Management Comments and OIG Analysis
           TSA’s comments on a draft of this report are included in Appendix B.
           TSA concurred with the recommendations and recognizes that
           improvements are needed in the management of security equipment. As
           such, TSA has initiated corrective action to address each of the
           recommendations. TSA also provided technical comments to the report.

           TSA’s Comments to Recommendation #1:

                   TSA concurred with this recommendation and completed two
                   corrective actions to address this recommendation: a Warehouse
                   Management Procedures and Oversight Manual and a Property
                   Disposition Process and Procedures Document.

                   OIG Analysis: TSA’s implementation of the standardized policies
                   and procedures described in its Warehouse Management
                   Procedures and Oversight Manual and its Property Disposition
                   Process and Procedures Document should improve its ability to
                   reduce the time inventory is stored in warehouses. The manual and
                   disposition procedures meet the intent of our recommendation and
                   are sufficient to resolve and close this recommendation.

           TSA’s Comments to Recommendation #2:

                   TSA concurred with this recommendation and reported that its
                   Property Disposition Process and Procedures Document requires a
                   quarterly review of warehouse inventory to ensure property
                   condition codes are accurately classified. Based on this review, a
                   determination may be made to reclassify property condition; for
                   example, from “repairable” to “salvage”.

                   OIG Analysis: We recognize the improvements TSA has made to
                   ensure the accuracy of the property condition codes. We agree that

      Management of the Transportation Security Administration’s Logistics Center 


                                        Page 8 

             the quarterly reviews required by its recently issued Property
             Disposition Process and Procedures Document are sufficient to
             resolve this recommendation. We will consider closing this
             recommendation once TSA provides us with a quarterly review of
             warehouse inventory.

     TSA’s Comments to Recommendation #3:

             TSA concurred with this recommendation and reported that its
             Warehouse Management Procedures and Oversight Manual
             requires a quarterly review of warehouse inventory levels. The
             review will validate and confirm equipment deployment quantities
             and schedules. Any equipment in excess of future requirements
             will be dispositioned as surplus according to the Property
             Disposition Process and Procedures Document.

             OIG Analysis: We agree that TSA developed a recurring process
             to redeploy or dispose of any excess equipment at the Logistics
             Center as described in its Warehouse Management Procedures and
             Oversight Manual and its Property Disposition Process and
             Procedures Document. The process described in these documents
             is sufficient to resolve and close this recommendation.

     TSA’s Technical Comments:

             TSA provided technical comments that were incorporated into the
             report as appropriate, except for the following comment: “In the
             section on ‘Redeployment of Used Equipment,’ TSA disputes the
             implication that x-ray units may have been inappropriately sent to
             disposal because the contractor’s inventory system classified the
             property as useable.”

             OIG Analysis: Our finding that TSA disposed of equipment that
             was classified as available for redeployment in the inventory
             system was based on documents provided by TSA during our
             fieldwork. TSA’s response did not provide evidence to
             demonstrate that the equipment disposed of was suitable for
             disposal and thus we did not update this section of the report as
             requested. However, we agree that the new Property Disposition
             Process and Procedures that TSA implemented is sufficient to
             resolve the property coding issue.




Management of the Transportation Security Administration’s Logistics Center 


                                  Page 9 

Appendix A
Purpose, Scope, and Methodology

                     We performed this audit as a result of the Property, Plant, and
                     Equipment material weakness reported in the TSA FY 2008
                     financial statement audit. Although TSA owns all types of
                     equipment, transportation security equipment represents the
                     majority of the agency's investment in capital property. Issues
                     contributing to the material weakness included excessive levels of
                     inactive assets on hand, inadequate processes for redeploying used
                     assets not planned for disposal, and improper recording and
                     accounting for all equipment and the associated costs necessary to
                     deploy and operate that equipment. The objective of our audit was
                     to determine whether TSA is efficiently deploying, redeploying,
                     and disposing of equipment through TSA Logistics Center.

                     We performed the audit at the TSA Logistics Center in the Dallas,
                     Texas area and at TSA Headquarters in Arlington, Virginia. Our
                     review included analysis of the work processes, procedures, data
                     sources, and reports for TSA Logistics Center operations.

                     To evaluate internal controls relevant to our audit objective, we
                     gathered information about the programs through interviews,
                     analysis, and document reviews. We conducted interviews with
                     various officials in the Office of Security Technology and Office
                     of the Chief Procurement Officer, including contract officers and
                     contract officer technical representatives. We researched
                     applicable laws and regulations and evaluated various planned
                     initiatives. We conducted walkthroughs of the three warehouses at
                     the Logistics Center and performed limited inventory testing. We
                     analyzed TSA procedures and management reporting. We
                     reviewed contracts for the leasing of warehouses. We examined
                     the inventory records for new equipment, used equipment, and
                     equipment awaiting disposal at the Logistics Center as of January
                     22, 2009. We reviewed the Memorandums of Understanding
                     relating to the disposal of transportation security equipment. We
                     analyzed the records for the equipment disposed of during
                     November and December 2008.

                     We conducted the audit fieldwork between December 2008 and
                     March 2009 according to generally accepted government auditing
                     standards. Those standards require that we plan and perform the
                     audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based on our
                     audit objectives. We validated the reliability of inventory data by
                     observing an inventory and believe within the scope of this audit
                     that we can reasonably rely on the data. We also believe that the
                     evidence obtained provides a reasonable basis for our findings and
                     conclusions based on our audit objectives.
        Management of the Transportation Security Administration’s Logistics Center 


                                          Page 10 

Appendix B
Manai?ement Comments to the Draft Report
                                     FOR OFFICIAL USE ONLY
                                                                             U.S. Department of Homeland Security
                                                                            60 I South i 21h Street
                                                                            Arlington, VA 20598


                                                                            Transportation

  SEP 3 0 2009                                                              Security

                                                                            Administration

                                           INFORMATION



MEMORANDUM FOR:	                Richard Skinner
                                Assistant lnspectòr General for Audits
                                U.S. Deparment of Homelaild Security

FROM:	                          Gale D. Rossidesb if () ¡J . .g,~
                                Acting Administrl~tz~~c'
                                Transportation Sècurity Administration
                                                 ¡'


SUBJECT:	                       Draft Letter Report: j'vfanagementarthe Transportation Security
                                Administration's (TSA) Logistics Center-For Official Use Only

Purpose

This memorandum constitutes the Transportation Security Administration's (TSA) formal
Agency response to the U.S. Department of Homeland Security (DHS), Offce ofInspector
General (GIG) draft letter report, Management of the Transportation Security Administration's
Logistics Center-For Official Use Only, dated August 1 i, 2009. TSA recognizes its
responsibility for effective management. of 
 TransportatIon Security Equipment (TSE), and we
appreciate the opportunity to review and provide comments to your draft report.

Background

TSA is charged with countering terrorist threats to aviation security with technologies and
procedures that prevent, deter, or render ineffective any attempt to sabotage civil avÎation. The
development, acquisition, and deployment ofTSE is central to TSA's mission to protect
U.S. transportation systems. TSA personnel use equipment to screen air passengers, baggage,
and cargo, including x-rays, explosives trace detection systems, explosives detection systems,
bottled liquid scanners, and enhanced walk-through metal detectors. TSE is evolving rapidly
with changing threats and advances i~ technology                that can result in equipment becoming
obsolete before the end of Îts useful 
          life. As of January 2009, TSA had. approximately 13,650
units ofTSE at 457 airports nationwide and 2,302 units of equipment staged at the TSA
Logistics Center (TLC) in Dallas, TX. ~

The TLC is a facility composed of three warehouses used to temporarily stage new and used
screening equipment for deployment or redeployment Lo airports, and for processing surplus and
obsolete equipment for disposaL. TLC warehouses are operated by a TSA contractor that uses a
contractor information management system to track Government inventory. Over time, and as
inventory increased, the TLC grew from one warehouse in February 2005, to three warehouses
today.



                                     FOR OFFICIAL USE ONL Y

            Management of the Transportation Security Administration's Logistics Center
                                                      Page 11


                                                                                                                    '"
 Appendix B
 Management Comments to the Draft Report
                                                                                                                 2
                                       FOR OFFICIAL USE ONLY

OIG performed this audit as a result of the Property, Plant, and Equipment material weakness
reported in the TSA fiscal year (FY) 2008 financial statement liUdit. process. Independently, and
in response to that material weakess, TSA chartered an Integrated Property Management Team
(IPT) in January 2009 to establish guidance to ensure that TSE is warehoused and deployed
appropriately and that equipment is controlled, accounted for, and reported in accordance with
applicable laws and regulations. The IPT established a Management Action Plan (MAP) to
create deliverables to strengthen existing procedures or develop new ones to improve the
effectiveness and efficiency of existing TSA property management 
  and accounting procedures.

The OlG audit results found that TSA did not efficiently deploy, redeploy, or dispose of
transportation security equipment through its Logistics Center. Specifically, TSA stored new
equipment more than 3 years without \\Titten plans for its deployment, did not perform timely
assessments of the condition of used eq uipment to determine whether these items could be
redeployed, and stored excess TSE longer than necessary due to a lack of, 
                 standard guidance. As
a result, TSA leased additional warehouse space in FY 2009 at a cost or$2 milion to store
excess equipment, may have lost utilty of 
                  equipment as it aged in storage, and did not have an
accurate accounting of its inventory.

Discussion

While TSA concurs with OIG's recommendations, we are providing comments on statements
within the five sections of the report: "Results of Audit," "Deployment of 
 New Equipment,"
"Redeployment of Used Equipment," "Equipment Disposal," and "Planned TSA Actions," that
we belicve require clarification or correction.

The "Results of Audit" sectìon of the report states that as a result ofa lack of standard guidance
for the deploymcnt, redeployment, and disposal of transportation security equipment, TSA leased
additional warehouse space in FY 2009 at a cost of$1.97 milion. While it is accurate that
additional spacc was leased in October 2008, the GIG findings in this area were not the sole
cause orTSA's additional space requirement, and it would be unfair to characterize TSA's
perceived lack of standard guidance for deployment, redeployment, and disposal of TSE as the
sole cause ofTSA's additional space requirements. Nonetheless, TSA does believe it was a
contributing factor and has taken steps to address the issue.

In the "Deployment orNew Equipment." section, please change the term "Warehouse Operations
personnel" and "Logistics Center personnel" to "TSA program offce personneL." TSA program
offce personnel designate airports to receive new equipment, and Logistics Center and
Warehouse Operations personncl are contractors.

In the scction on "Redeployment of 
                Used Equipment:' TSA disputes the implication that x-ray
 units may have been inappropriately sent to disposal because the contractor's inventory system
 classified the property as useable. At the time of 
           the audít, TSA procedures did .not require the
 contractor to change the property condition code in their inventory system for equipment being
 sent to disposaL. Rather, the equipment was tagged for disposal and entercd by TSA into the
 Inactive Asset Module of the Sunflower Asset Management System (SAMS), the official TSA
,Property Management system of 
                record. As such, surplus or obsolete equipment approved by
 TSA for disposal was stil in the contractor's inventory system w1der the most recently assigned
property condition code (for example, useable, repairable) prior to the disposal decIsion. Since
                                       FOR OFFICIAL USE ONL Y


                Management of the Transportation Security Administration's Logistics Center
                                                      Page 12

 Appendix B
 Manai?ement Comments to the Draft Report
                                                                                                               3
                                                 FOR OFFICIAL USE ONL y'

the audit, TSA has adopted the use of 
              property condition code "X" to specifically designate
property going to disposal, in compliance with the TSA Property                  Management ManuaL. This
procedure is discussed in Section 3.2.3.3 of 
        the Property Disposition Process and Procedures
Document, dated August 4, 2009, one of 
           the documents prepared by the TSA 1PT. The
Contracting Offcer's Technical Representative (COTR) for the TLC warehouse contract has
also directed the contractor to change a property's condition code to "X" in their inventory
system upon receiving disposal notification from TSA. Going forward, this new procedure
should ensure that condition codes for disposal equipment agree in both TSA's and the
contractor's inventory systems, which wil avoid the discrepancy that was noted by the auditors.
To more accurately describe the circumstances of 
          this discrepancy, TSA recommends replacing
the fifth and subsequent sentences of the first paragraph of this section with the following: "TSA
personnel did not require the contractor to update its inventory system to change the property
condition code for equipment that was approved for disposaL. As a result, more thtin 200 x-ray
units approved for disposal by TSA were stil shown in the contractor's inventory system with a
property condition code of 'usable. 'l

Also, in the section on "Redeployment of Used Equipment," the second paragraph states that
"TSA did not have procedures in place to ensure that inventory..." Here, 0 rG correctly
references this shortcoming in the 
 past tense, but TSA recommends adding the qualifying
language "at the time" preceding this statement, which properly takes into account the
subsequent corrective action taken by TSA.

In the section on "Equipment Disposal," the second paragraph noted the extended time between
the commencement of initial disposal planning and actual equipment disposaL. Admittedly, the
time period was long, so TSA would like to offer clarification to better explain some of  the
contributing factors. TSA recommends replacing the second sentence with, "Although TSA
personnel began developing a disposal plan in coordination with the Department of Defense in
May 2005, the first equipment disposal did not take place until November 2008, due to the
diffculty in establishing an agreement with a Governent, organization possessing the
capabilities to properly destroy sensitive national security eq'uipment and completing a review of
hazardous material disposal requirements. Tn November and                    December 2008, Logistics Center
personnel disposed of approximately 3,000 units of equipment."

The section on "Planned TSA Actions" acknowledges the work of the TSA IPT in preparing
deliverables to address TSE warehouse storage and disposaL. The 1PT meets monthly and has
completed four key deliverables since the audit. As such, TSA would like to recommend a text
change to reflect the progress of 
           the 1PT and its near-term plans. TSA recommends replacing the
last sentence of this section with the tollowing:"The Integrated Property Management T ear
completed the Warehouse i'v.fancigement Gap Analysis in March 2009, the Warehouse
Management Procedures and Oversight l\tJanual in July 2009, the Property Dispositon Process
and Procedures Document and the Security Equipment Management Manual in August 2009.
Training is scheduled tòr September 2009 to familarize TSA personnel with new procedures
contained in the approved IPT documents so they may be fully implemented 
              by December 31,
2009." (Documents attached.)

Overall, your recommendations will help us continue to strengthen policies and procedures fòr
deployment,redeployment, and disposal operations at the TLC. We concur with your
recommendations and have already taken steps to address them.
                                                 FOR OFFrClAL USE ONLY

                 Management of the Transportation Security Administration's Logistics Center
                                                                  Page 13

  Appendix B
  Manai?ement Comments to the Draft Report
                                                                                                          4
                                      FOR OFFICIAL USE ONLY


  Recommendation 1: Develop, implement, and monitor procedures for the effcient
, deployment, redeployment, and disposal of all transportation security equipment through
 the Logistics Center.

 TSA Concurs: The TSA 1PT produced two deliverables that address this recommendation. The
 first deliverable was the r'Varehouse lvfanagement Procedures and Oversight Manual requires a
 new quarterly evaluation of 
warehouse inventory levels against projected operational
 requirements to ensure equipment dbes not remain in storage longer than necessary. While the
 complex and dynamic circumstances of deploying security screening equipment makes it
 diflcuIt to assign a IÌxed, maximum length of storage time, the procedures do require an
 escalated level ofapproval to store equipment in the warehouse for longer than 180 days. The
 quarerly evaluation will ensure warehouse inventory levels are continuously monitored so '
 equipment may be reassigned to an altemate deployment site if events occur that would delay
 deployment to the primary site (for example, permitting, airport constniction, etc.). The second
 deliverable was the Property Dispositon Process and Procedures Document, which covers the
 property     disposal process from equipment decommissioning through the update of property and
 financial records to reflect the actual disposal of 
 the property. The document addresses
 disposition process phases, the assignment of propert condition codes, the periodic reevaluation
 of warehouse inventory, disposition methods, and the treatment of accounting and property
 records for disposal equipment. The procedures in these two documents wìl improve the
 efficiency ofTSA deployment, redeployment, and disposal operations through the Logistics
 Center as recommended by GIG.

 Recommendation 2: Perform periodic reviews of inventory to make sure inventory is
 correctly classified.

 TSA Concurs: The Property Dispositon Process and Procedures Document requires a
 quarerly review of 
 warehouse inventory to ensure property condition codes are accurately

 classified. Based on this review, a determination may be made to reclassify property condition

 (for example, from "repairable" to "salvage").

 Recommendation 3: Develop a recurring process to redeploy or dispose of any excess
 equipment at the Logistics Center.

 TSA Concurs: The Warehouse Management Procedures and Oversight lvfcmual requires a
 quarterly review of 
       warehouse inventory levels. The review will validate and coníìrm equipment
 deployment quantities and schedules. Equipment quantities in excess of 
         future deployment

 requirements wil be dispositoned as surplus in accordance with the Property Dispositon

 Process and Procedures Document.

 Attachments




            \
                                      FOltOFFICIAL USE ONLY

                 Management of the Transportation Security Administration's Logistics Center
                                                  Page 14

Appendix C
Major Contributors to This Report


                     Linda Howard, Director
                     Gene Wendt, Audit Manager
                     Stephanie Christian, Program Analyst
                     Enrique Leal, Program Analyst
                     Gary Crownover, Program Analyst
                     Michael Lugo, Auditor
                     Lisa Vonder Haar, Desk Officer




        Management of the Transportation Security Administration’s Logistics Center 


                                          Page 15 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Transportation Security Administration

                      Assistant Secretary Transportation Security Administration
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




        Management of the Transportation Security Administration’s Logistics Center 


                                          Page 16 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
